No.

In the Supreme Court of the United States

XAVIER LISTER,
PETITIONER,

Vs

UNITED STATES OF AMERICA,
RESPONDENT,

PROOF OF SERVICE

I, Camille M. Knight, do swear or declare that on this date, February 15,
2021, as required by Supreme Court Rule 29, I have deposited a package containing
the Motion for Leave to Proceed In Forma Pauperis and the Petition for Certiorari
with Federal Express, with shipping prepaid for standard overnight delivery to the
Clerk of this Court.

I have served the documents on Respondent by Federal Express, Standard
Overnight Delivery, to the following address:

Solicitor General of the United States
Department of Justice

950 Pennsylvania Avenue NW
Washington, D.C. 20530-0001

and by electronic mail today to the Office of the Solicitor General at
SupremeCtBriefs@USDOJ.gov.

I further certify that all parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 15, 2021.

 

Burleson, Pate & Gibson, LLP
900 Jackson Street, Suite 330
Dallas, Texas 75202

(214) 871-4900
cknight@bp-g.com
